<html>
<title> - THE STATE OF AFFAIRS IN THE BALKANS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]






                  THE STATE OF AFFAIRS IN THE BALKANS

=======================================================================


                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON EUROPE AND EURASIA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 15, 2011

                               __________

                           Serial No. 112-112

                               __________

        Printed for the use of the Committee on Foreign Affairs





<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE
 71-261PDF                WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001











                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey
EDWARD R. ROYCE, California          BRAD SHERMAN, California
STEVE CHABOT, Ohio                   ELIOT L. ENGEL, New York
RON PAUL, Texas                      GREGORY W. MEEKS, New York
MIKE PENCE, Indiana                  RUSS CARNAHAN, Missouri
JOE WILSON, South Carolina           ALBIO SIRES, New Jersey
CONNIE MACK, Florida                 GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
MICHAEL T. McCAUL, Texas             DENNIS CARDOZA, California
TED POE, Texas                       BEN CHANDLER, Kentucky
GUS M. BILIRAKIS, Florida            BRIAN HIGGINS, New York
JEAN SCHMIDT, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
BILL JOHNSON, Ohio                   CHRISTOPHER S. MURPHY, Connecticut
DAVID RIVERA, Florida                FREDERICA WILSON, Florida
MIKE KELLY, Pennsylvania             KAREN BASS, California
TIM GRIFFIN, Arkansas                WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
ROBERT TURNER, New York

                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director
                                 ------                                

                   Subcommittee on Europe and Eurasia

                     DAN BURTON, Indiana, Chairman
ELTON GALLEGLY, California           GREGORY W. MEEKS, New York
GUS M. BILIRAKIS, Florida            ELIOT L. ENGEL, New York
TIM GRIFFIN, Arkansas                ALBIO SIRES, New Jersey
TOM MARINO, Pennsylvania             THEODORE E. DEUTCH, Florida
JEAN SCHMIDT, Ohio
TED POE, Texas















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Phil Gordon, Assistant Secretary, Bureau of 
  European and Eurasian Affairs, U.S. Department of State........     9
The Honorable Kurt Volker, managing director--International 
  Group, BGR Group, senior fellow and managing director, Center 
  for Transatlantic Relations, School of Advanced International 
  Studies, Johns Hopkins University..............................    38
Gerard M. Gallucci, Ph.D., former U.N. Regional Representative in 
  Mitrovica, Kosovo..............................................    48
Mr. Ivan Vejvoda, vice president, Programs, The German Marshall 
  Fund of the United States......................................    54

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Dan Burton, a Representative in Congress from the 
  State of Indiana, and chairman, Subcommittee on Europe and 
  Eurasia: Prepared statement....................................     4
The Honorable Phil Gordon: Prepared statement....................    14
The Honorable Gregory W. Meeks, a Representative in Congress from 
  the State of New York: Prepared statement......................    25
The Honorable Kurt Volker: Prepared statement....................    41
Gerard M. Gallucci, Ph.D.: Prepared statement....................    51
Mr. Ivan Vejvoda: Prepared statement.............................    57

                                APPENDIX

Hearing notice...................................................    74
Hearing minutes..................................................    75
The Honorable Dan Burton, a Representative in Congress from the 
  State of Indiana, and chairman, Subcommittee on Europe and 
  Eurasia: Material submitted for the record.....................    76

 
                  THE STATE OF AFFAIRS IN THE BALKANS

                              ----------                              


                       TUESDAY, NOVEMBER 15, 2011

                  House of Representatives,
                Subcommittee on Europe and Eurasia,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 11:06 a.m., in 
room 2200, Rayburn House Office Building, Hon. Dan Burton 
(chairman of the subcommittee) presiding.
    Mr. Burton. Good morning. The Subcommittee on Europe and 
Eurasia will come to order. Our topic today is the State of 
Affairs in the Balkans. And it is extremely timely, given the 
recent events in the region.
    Last week, along with Congressman Poe and Congressman 
Rohrabacher, I visited Croatia, Serbia, Kosovo, and Bosnia-
Herzegovina. On this visit, we were able to see and hear many 
of the recent successes and ongoing issues in the region 
firsthand. While we were, unfortunately, unable to visit 
Montenegro last month, I had the privilege of meeting with the 
country's Prime Minister Igor Luksic on the day that the 
European Council announced its recommendation that Montenegro 
begin its secession talks. I would like to congratulate 
Montenegro on this achievement. I would also like to 
congratulate Croatia on completing its own EU secession talks 
earlier this year. It now looks more likely that Croatia will 
join the EU probably within the next 2 years.
    Serbia, too, deserves recognition for the progress that it 
has made over the last decade. Let us be clear, the Serbia of 
Milosevic is dead. Modern Serbia is a democratic country firmly 
on the path to European integration, and is an important U.S. 
partner in the Balkans. The Government of Serbia is committed 
to joining the EU and the larger transatlantic community. This 
commitment is visible in the Serbian Armed Forces, which has 
fully adopted NATO protocols and compatibility, an amazing 
achievement for a country that felt the full brunt of NATO 
airpower just over a decade ago.
    However, despite these achievements, the relationship 
between Serbia and Kosovo remains dangerously unresolved, while 
Bosnia has been unable to form a government over a year after 
its elections. The United States and her European allies must 
continue to work with all parties involved to solve these and 
other ongoing issues in the region. However, such engagement, 
whether it comes bilaterally or through our Embassies, or 
multilaterally through institutions such as KFOR and NATO or 
the other organizations over there, OHR, or the Office of High 
Representative in Bosnia, can only play a supporting role. A 
lasting peace in the Balkans cannot be imposed by the 
international community. It must come from within. And that is 
one of the reasons why initially I was very concerned, among 
some of my other colleagues, that we were recognizing Kosovo 
before talks were completed between Serbia and Kosovo. It 
bothered me, since I have been on Foreign Affairs for some 
time, that we have not been able to solve the problems between 
Israel and the Palestinians and we have been trying to get them 
together for a long, long time, and yet we unilaterally made 
the decision to recognize Kosovo. And I think that kind of 
exacerbated some of the problems that they have over there 
right now. And I know the administration has a different 
position, but that is just my view.
    Serbs and Kosovars from Belgrade, Pristina, and Mitrovica 
must sit down as equals, as must Serbs, Croatians, and Bosniaks 
in Bosnia. During our recent visit, the leaders in Belgrade, 
Pristina, and Sarajevo spoke clearly and in agreement. When the 
international community appears to support one community over 
another, that community loses all incentive to compromise, 
believing falsely that it can dig in and wait for support from 
above.
    The similarity between the international community's 
decision to recognize Kosovo over Serbian opposition and 
Palestinian efforts to gain U.N. Recognition outside of a 
dialogue with Israel cannot be denied. The international 
community must mediate between Israel and Palestine, as well as 
between Serbia and Kosovo, while recognizing that in either 
case it cannot impose a solution. In both cases, we must work 
to support dialogue that leads to a common understanding.
    In addition, the EU cannot allow the status of Kosovo to 
dominate the discussion regarding Serbia's accession, to 
overshadow Serbia's strengths or shortcomings regarding 
economic and political development. The Kosovo issue should be 
solved as a part of the accession process and not as a 
prerequisite for that process to begin.
    The role of the international community should also include 
working with local leaders to stamp out corruption and to hold 
those responsible for atrocities accountable. I am very 
troubled by the findings--and we read this report last week--I 
am very troubled by the findings of the report authored by the 
Swiss politician and human rights activist Dick Marty regarding 
inhumane treatment and harvesting of organs in Kosovo. I urge 
the international community to work with the current Government 
of Kosovo to fully investigate these findings. I talked with 
the Kosovars and their leadership and they firmly denied that 
this did occur. Nevertheless, I think that an investigation 
should continue.
    This report and a subsequent investigation should not be 
viewed as an attack on Kosovo, but as an effort to help the 
government in Pristina to continue to develop. They seem to be 
sincere that they want to go ahead and work out the problems in 
the northern part of Kosovo with the Serbs. But these other 
issues should be looked into and investigated thoroughly.
    I look forward to hearing what the administration is doing 
to support Ambassador Williamson, the former U.S. Ambassador-
at-Large for War Crimes Issues, who is currently heading the 
investigations as an EU Special Prosecutor.
    Significant economic concerns lurk behind and contribute to 
the ongoing political issues in the region. Across the 
southeastern European area, unemployment is high and taxes are 
even higher. Despite their progress toward EU membership, 
unemployment hovers around 15 percent in Croatia and Montenegro 
and reaches above 20 percent in Serbia. This figure is at least 
twice as high in Kosovo and Bosnia. In Croatia, we also heard 
that for all the country's progress, signs of the ``Yugoslav 
hangover'' remain present, with a 23 percent value added tax, 
high corporate taxes and burdensome parafiscal taxes, including 
historic building fees, forestry fees, and mandatory membership 
in business associations.
    These are difficult problems to solve. We have them here in 
the United States as well. But we have to continue to work with 
them to solve these problems and to try to bring them together 
to solve these problems. If you don't have economic viability 
and growth, you are going to continue to have problems in these 
areas.
    Continued economic and political development is the only 
way to ensure that the peace is preserved and strengthened. As 
the violence in northern Kosovo and the attack on our Embassy 
in Sarajevo show, a sense of political disenfranchisement, 
combined with high unemployment, creates fertile ground for 
nationalist and religious extremism.
    My colleague is still not here, but before I recognize 
him--and I will recognize him when he comes in--I would like to 
acknowledge that our Embassy staff in Sarajevo, including the 
local security team and the Marine Guard, I want to thank them 
for their bravery and the presence of mind that they showed in 
protecting the Embassy and assisting local police during the 
recent attack. The people of Sarajevo made it clear during our 
visit that this was not only an attack on the United States, 
but an attack on the peace that so many have worked so hard and 
given so much to create. In the spirit of building on this 
progress, I look forward to a productive discussion this 
morning and continuing to support those working to move the 
region forward. And I want to thank you.
    [The prepared statement of Mr. Burton follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Burton. Since my colleague is not here, does anybody 
have an opening statement?
    Do you have an opening statement?
    Mr. Sires. Thank you, Mr. Chairman, for holding this 
hearing today to evaluate the state of affairs in the Balkans. 
Since the mid-1990s, the region has undergone a great 
transformation as the wars have ended and political and 
economic reforms have set in. The region has also progressed 
toward greater integration with Europeans and the transatlantic 
institutions.
    While great improvements have been made in the Balkans, 
various challenges still remain, including dealing with the 
impact of Kosovo's independence and the ongoing fight against 
organized crime and corruption in the region. As our priorities 
have shifted over the past decade toward the war on terrorism 
and the Middle East, it is critical that we continue our 
commitment to stabilize the Balkans in a way that is self-
sustaining and does not require direct intervention by 
international forces. A secure and prosperous Balkans is in the 
best interest of the United States and our transatlantic 
allies.
    I look forward to hearing from our esteemed witness today.
    Thank you, Mr. Chairman, for holding this hearing.
    Mr. Burton. Thank you very much.
    Mrs. Schmidt.
    Mrs. Schmidt. Thank you, Mr. Chairman. First off, I want to 
recognize I have had the chance this year to have had two Hope 
Fellows shadow me for the day, and Mimoza Ahmetaj from Kosovo 
is here. I just want to welcome her back.
    Mr. Chairman, generally speaking, much progress has been 
made in the Balkans in the last several years. As mentioned, 
Albania, Croatia, and Slovenia have joined NATO. And Croatia 
will be soon joining the EU. To a great extent, tragedy and 
conflict are giving way to political and economic stability, 
but there are still problems in the region. My concern lies 
with Serbia and the problems that I believe they are creating 
for Kosovo. Having declared its independence in February 2008, 
Kosovo is now recognized by 86 countries, including 24 NATO 
members and 22 EU members. All of Kosovo's neighbors have 
recognized its independent status, with the exception of 
Serbia.
    In 2010 the International Court of Justice even released an 
advisory opinion affirming that Kosovo's declaration of 
independence did not violate international law. Unfortunately, 
Serbia and the Serbian community in the northern Kosovo area, 
refuses to accept the Ahtisaari Settlement and continues to 
challenge Kosovo's right to govern its sovereign territory, 
often with tragic consequences. I am sure we are all aware of 
the Kosovo Serbs' recent illegal actions in which they took 
control of several custom checkpoints in northern Kosovo, 
killing a Kosovar police officer in the process. With the help 
of the KFOR peacekeepers and the EULEX police, order was 
restored and it appears that an agreement on joint customs 
management at border crossings in northern Kosovo has been 
reached.
    Still, I think this incident and a series of incidents by 
Kosovo Serbs is a great illustration as to why we need to keep 
the KFOR troops, including the contingent of American troops, 
in Kosovo. Further, we need to stand firm with perhaps our best 
friends in the region, the Kosovars, and refuse to give 
credence to the idea that some are trying to advance--the 
moving of borders in northern Kosovo. I just don't think that 
is an option.
    Further, given Serbia's refusal to accept Kosovo's right to 
govern its sovereign territory, along with Serbia's illegal 
actions, such as the takeover of the customs checkpoint, I do 
not believe that Serbia should be permitted into the EU at this 
point. I hope the EU member nations will think long and hard 
before allowing Serbia to join without a full investigation 
into their actions.
    Kosovo is a free, independent, and democratic state. I want 
to thank my friend Eliot Engel for providing me the information 
on Kosovo so many years ago when I first got here. He has been 
an ardent advocate for Kosovo's right to exist along with the 
other Balkan nations. I believe that every nation has the right 
to chart its own destiny, including Kosovo.
    I yield back my time.
    Mr. Burton. Mr. Marino.
    Mr. Marino. No opening statement.
    Mr. Burton. Mr. Poe, did you have an opening statement?
    Mr. Rohrabacher.
    Mr. Rohrabacher. First of all, I would like to thank the 
chairman for his leadership on this issue. The fact is, he led 
a codel, which I was part of, to the Balkans just a few days 
ago. He demonstrated during that trip leadership and also 
reaffirmed to the people there on all sides that the United 
States and the U.S. Congress has not forgotten them but has a 
keen interest in what happens there. So I would like to thank 
the chairman for his leadership not only on this hearing but 
his willingness to go and check it out firsthand.
    I have been involved with this area for many, many years, 
and I really felt the trip was worthwhile because I have come 
to some new understandings about the various people who are 
running these countries and the challenges that we face. I 
would just suggest that we do have a new government in Serbia 
that realizes that there were problems and crimes that were 
committed in the past and that they have nothing to do with 
those crimes. They are trying to leave that past behind. I was 
very impressed with the sincerity of the Serbian Government to 
try to find some solutions and to try to calm things down at 
this point with the Kosovars.
    There are, however, some very serious problems that remain 
that were not taken care of by the fundamental agreement years 
ago. What we have--and we have seen this happen in other 
countries as well--for example, India, where the people of 
Kashmir were never given a right to decide whether they were 
going to be part of India or going to be part of Pakistan--
where there is continuing violence simmering right below the 
surface. And sometimes in Kashmir and northern Kosovo things 
come to the surface and the risk of bloodshed and extended 
conflict remains.
    I have presented to both the Kosovars and the Serbian 
Governments a plan that would be a delineation of the border, a 
very simple delineation of the border, which would say that in 
that northern part of Kosovo, where 90 percent of the people, 
if not more, are Serbian, that they be permitted to become part 
of Serbia. While there is a valley coming out of Kosovo into 
Serbia where 90 percent of them are Kosovars, almost an equal 
amount of territory and an equal amount of population, just 
redesignate the border. That, I believe, would calm the 
situation down dramatically.
    Now, I have found--let me put it this way, not an 
agreement, but a deep interest on the part of some of the 
government officials in that region to this plan. I would 
suggest that one of the main problems of taking such an action 
would be--is the fact that our Government believes--obviously 
believes--that any change of territory would result in a domino 
effect that would create havoc throughout the world, not just 
the Balkans, but the whole world.
    I would suggest, Mr. Chairman, that such an action, if we 
could have an agreement between Kosovo and Serbia on something 
like that, it would be a dramatic first step and something that 
would be very symbolic of two sides being able to work together 
to try to make the situation better. There will be no 
prosperity in that region and there will be no steps forward 
for either country until all the issues are settled. And this 
would be a first big step.
    I thank you, Mr. Chairman, for allowing me to make that 
opening statement and also for allowing me to have the 
discussion on that issue during the codel with the various top 
leaders of the various countries that we visited.
    Thank you very much.
    Mr. Burton. Thank you, Mr. Rohrabacher.
    As you can see, Secretary Gordon, there are divergent views 
on this whole issue.
    Dr. Philip Gordon, our first witness, was nominated as 
Assistant Secretary on March 6, 2009, and took the oath of 
office on May 15, 2009. As Assistant Secretary, he is 
responsible for 50 countries in Europe and Eurasia, as well as 
NATO, the EU, and the OSCE. Dr. Gordon has previously served as 
a senior fellow at the Brookings Institute in Washington, DC; 
director for European Affairs at the National Security Council 
under President Bill Clinton; and a senior fellow, 
International Institute for Strategic Studies, in London. He 
has a Ph.D. and an M.A. from Johns Hopkins University of 
Advanced International Studies and a B.A. from Ohio University.
    Dr. Gordon, we welcome you and appreciate you being here, 
and we look forward to your testimony.

 STATEMENT OF THE HONORABLE PHIL GORDON, ASSISTANT SECRETARY, 
  BUREAU OF EUROPEAN AND EURASIAN AFFAIRS, U.S. DEPARTMENT OF 
                             STATE

    Mr. Gordon. Mr. Chairman, thank you very much for inviting 
me and thanks to you and your colleagues for holding this 
important hearing. With your permission, I would like to submit 
my written testimony for the record.
    Mr. Burton. Without objection.
    Mr. Gordon. Thank you. I will just summarize some critical 
points here.
    While the dramatic events of the Arab Spring may dominate 
press headlines, the Obama administration remains as committed 
as ever to helping the Western Balkans on their path to 
European integration. I was most recently there myself in June, 
following a number of previous trips.
    Then-Under Secretary Burns was in the region in July; 
Deputy Assistant Secretary Phil Reeker, who is here today, has 
been in the region on a very regular basis and remains in 
continuous contact with European partners. We also welcome 
congressional visits and interests in the region, including the 
delegation that the chairman recently led.
    The Western Balkans is a critical part of Europe--
historically, geographically, and culturally. For us, it is 
impossible to speak about a Europe that is whole, free, 
democratic, and at peace, without including the Balkans. Our 
clear policy goal is the integration of all of the countries in 
this region into Euro-Atlantic institutions. As we have seen in 
the rest of Europe, this is the best means of ensuring long-
term peace, stability, and prosperity. Their success remains 
vital to U.S. national security interests, as a return to 
conflict would destabilize the region, hinder economic growth, 
and distract from the global challenges, such as Afghanistan, 
that we are addressing together with the European partners, 
including our friends in the Balkans.
    While there are many challenges in the region, it is worth 
pausing to review the progress made in the last few years with 
sustained American engagement and assistance. NATO's military 
presence has decreased significantly as a result of greater 
regional stability. Meaningful reforms have been made in the 
rule of law, market economics, and democratic governance. 
Slovenia joined the EU in 2004. Albania and Croatia joined NATO 
in 2009. As was pointed out, Croatia was recently invited to 
join the European Union. The North Atlantic Council said that 
Macedonia will receive an invitation to join NATO as soon as 
the name dispute is resolved. Kosovo is nearing the fourth 
anniversary of its independence and continues to make progress 
as a multiethnic democracy. Montenegro, only 5 years after it 
obtained independence, already has EU candidacy status and is a 
full participant in NATO's Membership Action Plan. Serbia has a 
stabilization and association agreement with the EU and has 
taken some notable steps toward achieving candidacy status, 
including the arrest of Ratko Mladic and Goran Hadzic. In 
September, a small group of Adriatic-5 country trainers 
deployed together to Afghanistan, exhibiting a degree of 
military-to-military cooperation in the region that would have 
been unimaginable a decade ago. Just last week, the foreign 
ministers of Bosnia and Herzegovina, Croatia, Montenegro and 
Serbia signed a joint declaration announcing their countries' 
commitment to resolving the longstanding issue of refugees and 
displaced persons in the Balkans.
    So while clearly there are challenges, I do think it is 
important to note the continued progress of a number of these 
countries. Obviously, all of these countries have further work 
to do. My written statement discusses each in turn. So if I 
might, I would like to just focus some remarks here on Serbia, 
Kosovo, and Bosnia-Herzogovina.
    In Serbia, the United States has welcomed the progress that 
Serbia has made this year on internal reforms needed for EU 
accession, especially its effort to reform the judiciary. With 
the extradition of Ratko Mladic and Goran Hadzic to The Hague, 
Serbia has demonstrated its commitment to justice and met its 
key obligations to the International Criminal Tribunal for 
former Yugoslavia. In recognition of these measures, the 
European Commission made a conditional recommendation that 
Serbia be granted EU candidate status. The progress report, 
however, that was issued last month also made the 
recommendation ``on the understanding that Serbia re-engages in 
the dialogue with Kosovo and is moving swiftly to the 
implementation in good faith of agreements reached to date.'' 
The United States welcomes the Commission's recommendation 
because we strongly support Serbia's EU aspirations. However, 
we also agree with our European partners that Serbia must come 
to terms with the reality of an independent multiethnic Kosovo 
within its current borders.
    In March of this year, Serbia and Kosovo began an EU-
facilitated dialogue process. These talks are explicitly not 
about reopening the issue of Kosovo's status, which we believe 
is entirely resolved; rather, both sides indicated their 
willingness to discuss practical solutions that could improve 
the lives of people in both Serbia and Kosovo.
    The United States has backed the efforts of Robert Cooper, 
High Representative Ashton's appointed mediator, and has 
participated as an observer in every session of the dialogue. 
While the dialogue has resulted in improved technical 
cooperation, significant issues remain unresolved and Serbia's 
implementation has been lagging.
    The United States remains concerned about the tense 
situation in northern Kosovo, particularly the roadblocks that 
were erected this summer by local Serbs in an attempt to 
prevent freedom of movement. We have been clear that there must 
be a safe and secure environment and unconditional freedom of 
movement throughout Kosovo. We look to the Serbian Government 
to cooperate fully with KFOR and EULEX in both the immediate 
removal of the roadblocks and ensuring proper controls at the 
border.
    Let me be clear on a final point. There is no way for 
borders in this region to be redrawn along ethnically clean 
lines. Partition and land swaps are unacceptable solutions. If 
any such process is set in motion, there is no way that it can 
be confined to a single boundary line or that it can end 
peacefully. Any rhetoric calling for the partition of Kosovo 
and questioning the ability of people of different ethnicities 
to live together is harmful to regional reconciliation and 
contrary to the international community's decade-long effort to 
move the region beyond the brutal ethnic conflicts of the 
1990s.
    Turning to Kosovo. This country has made remarkable 
progress in the last 3 years by strengthening its political 
institutions and fulfilling most of the obligations under the 
Comprehensive Status Proposal. Kosovo needs to continue the 
hard work of building a cohesive state and strengthening its 
multiethnic, democratic institutions. The United States has 
been clear that a vital part of this process includes ensuring 
respect for the rights of all of Kosovo communities, including 
Kosovo Serbs, and the preservation of their cultural and 
religious heritage. As EU Representative Ashton has said, ``The 
future of Kosovo lies in the European Union.'' The United 
States strongly agrees. Like other countries that have been 
motivated by the prospect of the EU integration, we believe 
Kosovo needs to see concrete steps toward its European 
perspective. We welcomed the EU's announcement that it will 
open a dialogue with Kosovo this year. We hope Kosovo soon 
receives European Council backing for concluding contractual 
relations in the form of a trade agreement or even a 
Stabilization and Association Agreement.
    The United States supports Kosovo's efforts to take its 
place in regional and global institutions. There are currently 
84 countries that have recognized Kosovo, including NATO and 
the European Union. We believe that even more countries will 
recognize Kosovo and back Pristina's efforts to secure wider 
recognition.
    Finally, let me say a word about Bosnia and Herzegovina. 
This country has made significant progress since the horrors of 
the 1990s, which is apparent when looking at its constructive 
contributions toward international peace and stability. Bosnia 
and Herzegovina is nearing the end of its 2-year rotation on 
the U.N. Security Council, where it has provided consistent 
support for U.S. priorities and its mission in Afghanistan.
    Bosnia and Herzegovina has been a steadfast partner against 
international terrorism. We saw this firsthand on October 28, 
when the U.S. Embassy in Sarajevo was attacked by a gunman on 
the Embassy compound. We appreciate the excellent cooperation 
from Bosnian authorities in response to this attack, as well as 
counterterrorism issues more generally. In recent years, Bosnia 
and Herzegovina has investigated and closed down numerous 
terrorism-financing NGOs and deported extremists who illegally 
entered the country. Given the need for constant vigilance, we 
are continuing to work closely with Bosnian authorities to 
strengthen their law enforcement and counterterrorism 
capabilities.
    Notwithstanding these successes, the country has not moved 
in the right direction over the past 5 years. We have witnessed 
a dangerous rise in nationalist rhetoric as well as brazen 
challenges to state institutions and the Dayton settlement. In 
addition, the reform process needed for NATO and EU accession 
has stalled. Bosnia's political leaders have been too willing 
to stoke ethnic fears and to place their personal political 
interests over the needs of the people they are supposed to 
represent. In order for Bosnia and Herzegovina to keep pace 
with progress elsewhere in the region, it must be able to 
function as a state that can deliver results for all of its 
citizens, regardless of their ethnicity.
    We have been urging--and I urged this on my last visit to 
Sarajevo, both publicly and privately--urging progress in three 
critical areas: Creating functioning political institutions, 
demonstrating commitment to the Dayton framework, and 
introducing governmental reforms necessary for Euro-Atlantic 
integration.
    The United States is working in very close coordination 
with the European Union on these priorities, and we continue to 
urge Bosnia's leaders to form a new government and address 
these issues in parallel. We welcomed the arrival in September 
of new Special Representative Peter Sorsenson, whom we strongly 
support to lead an enhanced EU presence dedicated to guiding 
Bosnia and and Herzegovina toward its European future.
    Finally, if I might, let me say a word about U.S. 
assistance to the region, which I know is of great interest to 
this committee. Since the breakup of Yugoslavia, the United 
States has remained deeply committed to helping integrate the 
Western Balkans into the Euro-Atlantic community. In the 
current climate of budget constraints and competing priorities, 
we recognize that our resources are finite and cannot cover all 
of the region's needs. Our foreign assistance is focused on the 
core remaining challenges in Albania, Macedonia, Serbia, 
Montenegro, while addressing more fundamental issues of 
democratic reform and economic modernization in Kosovo and 
Bosnia.
    With an eye to resource scarcity, we have begun to leverage 
our assistance to attract funding from Central and East 
European governments as well as the European Union. Our long-
term goal is to find ways to share assistance efforts with our 
new allies in the region.
    While the United States and European Union have important 
roles in completing unfinished business in the Western Balkans, 
the main responsibility falls on the citizens and leaders of 
the regions. Local political leaders must be willing to move 
past divisions and personal interests to focus on delivering 
genuine reforms and making necessary compromises as demanded by 
their citizens. We need partners who share this vision, who are 
prepared to put the interests of the people ahead of their own 
pride, who are willing to compromise for the greater good. The 
international community cannot want progress and reform more 
than local leaders do.
    Thank you very much for your attention. I look forward to 
your comments and questions.
    Mr. Burton. Thank you, Mr. Ambassador.
    [The prepared statement of Mr. Gordon follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Burton. I am sure you are already aware of this but 
both leaders of both Kosovo and Serbia indicated that there 
would be upcoming talks and they are going to try to continue 
to work out their differences. I think they were both sincere. 
I think those of us on the codel were impressed with the 
leadership of both Serbia and Kosovo, and I think there is a 
lot of sincerity there in trying to solve these problems.
    Let me just ask you a couple of real quick questions. Have 
you seen this report on the tragedies that took place during 
and shortly after the war regarding torture, and also the 
trafficking of human organs?
    Mr. Gordon. Yes, sir. 
    Mr. Burton. Where are we on investigating that? Is there 
any investigation going on right now to find out if there is 
any validity to this report?
    Mr. Gordon. Absolutely. Let me first say I agree with your 
previous comment about the sincerity of the leaders. We have 
encouraged dialogue between the two sides, and we are 
encouraged that for the first time in the history of this 
troubled relationship they have been willing formally to sit 
down together. We also believe in their sincerity, and that is 
why we strongly support that process and have participated in 
it.
    On the report that you mentioned from the Council of Europe 
and Swiss Senator Dick Marty alleging serious war crimes and 
organ trafficking, those are charges that we take very 
seriously. We have read the report carefully and we have talked 
to Senator Marty and his colleagues. Alleged crimes of that 
nature cannot go uninvestigated, and, if proven, unpunished. So 
we have acted rigorously and together with our European 
colleagues to ensure that appropriate investigations take 
place.
    You referred, Mr. Chairman, in your opening remarks, to 
Clint Williamson, the American prosecutor that we put forward--
experienced prosecutor in war crimes, former Ambassador for War 
Crimes issues for the United States. He seemed to us to be the 
individual best placed to lead a serious investigation of these 
allegations. That is why we put his name forward, working 
closely together with the European Union, and why he will lead 
this investigation, together with EULEX, the European Rule of 
Law Commission, which we also find appropriate in that this 
should be done together between the United States and the 
European Union. EULEX is the body to investigate the rule of 
law. They have judges, they have experts. And we are going to 
work very closely together. We are encouraged that all of the 
parties have pledged their full cooperation. I believe that is 
the message you heard in Pristina when you were there. That is 
what we have heard from Kosovars, from their neighbors.
    I think, to conclude, our presentation of the lead 
prosecutor and the fact that we are doing this together with 
EULEX is a real manifestation of our commitment to a full 
investigation and our commitment to working together with the 
European Union on the rule of law in the region.
    Mr. Burton. Well, there are varying views on the 
investigation. This yellow house, where a lot of these 
atrocities allegedly took place, there was a table there. And 
there was various testimony. Some people said a child was born 
on that table. Others said they had the dissection of people 
and their organs sold. And others said that it was a place 
where they killed cattle and other farm animals. So I think it 
really does need to be thoroughly investigated.
    Serbia has sent their war criminals to The Hague. They are 
going to send those who have not yet been prosecuted, who I am 
sure will be. I think that whoever committed atrocities, on 
either side, should be prosecuted to the full extent of the 
law. I hope there is no hesitancy to get to the truth, whatever 
it takes, because that is a horrible, horrible thing that took 
place.
    Regarding the blockades on the border, we flew over there, 
Congressman Rohrabacher and I, and the problem with those 
blockades is the KFOR leaders we talked to said, you remove 
one, and 24 hours later there is another one someplace else. So 
as long as the population there is determined to keep setting 
up these roadblocks, it is virtually impossible to keep them 
from occurring, because you tear one down, there is another one 
there 24 hours later. It just goes and on and on.
    So can you elaborate just a little bit on who you think is 
supporting that unrest? Is it criminally or politically 
supported? Is it possible that the people of northern Kosovo 
just don't want to be a part of Kosovo? What is your analysis--
or the State Department's analysis?
    Mr. Gordon. Thank you for flagging that real issue of 
concern to us. It is clearly a challenge to keep--ensure 
freedom of movement throughout the region, which is what we 
would want to see. And what you describe is accurate. When KFOR 
acts to take down the roadblocks, we see them come back up and 
appear in a different place. But we cannot accept that 
individuals, some of which are sponsored by Belgrade, others of 
which are encouraged by----
    Mr. Burton. How do you know that? How do you know 
individuals that are sponsored by Belgrade are putting up the 
roadblocks?
    Mr. Gordon. I think we have seen plenty of evidence from 
Belgrade: Political, rhetorical support; an absence of a 
willingness to take measures and ask them to stand down. I am 
not talking anybody behind the scenes, but visibly we have 
encouraged Belgrade to join us in supporting freedom of 
movement and opposing roadblocks, and have been disappointed by 
the absence of such support.
    I also think--you asked the question about criminal 
support--I do think there are those in the region who benefit 
from preventing open trade and take advantage of the lack of 
freedom of movement and open trade to corner the market on 
smuggling. And we have seen their actions in busing people to--
--
    Mr. Burton. Let me interrupt you, because I have one more 
question and then I yield to my colleagues. I didn't get the 
impression that the people in Serbia were instigating the 
roadblocks. The feeling that I had, I don't know about my 
colleagues, I will let them speak for themselves, was that 
there are people there that definitely don't want to be part of 
Kosovo, and they are the ones that are doing it. So hopefully 
during the talks that take place, they will be able to come to 
some kind of resolution that will convince those people to 
remove the roadblocks. But I don't think that the Serbian 
leadership is involved, at least not from my perspective.
    I have one more question. When we were in Sarajevo we met 
with the three factions, the leaders. You have got a real 
Gordian knot there. There was just no movement toward 
agreement. So if you can give us an update on that real quickly 
from the State Department's perspective on how you are going to 
get these three factions together to solve these problems a 
year after the elections, I would like to hear that.
    Mr. Gordon. Sure. One final brief word on roadblocks. I 
wanted to say the reason we so seriously object to this is that 
to allow locals, wherever they might be, to interfere with 
freedom of movement, in part for reasons I say of protecting 
smuggling routes and criminal enterprises, would be a slippery 
slope that would be dangerous for the whole region if we just 
stood passively by and said, It's okay, if you don't want to 
accept freedom of movement, to close down roads. So that is why 
we take such a firm line on that issue. Of course, we agree 
this needs to be talked through with the locals who live there 
and with the neighbors.
    I can't disagree with your assessment that political 
progress in Sarajevo is a Gordian knot. We have been 
disappointed. We waited for some time for last October's 
elections to take place, hoping that those elections would 
allow the formation of a functioning government which would be 
in the interest of the people of the country. They had the 
election but the political leaders have failed to reach an 
agreement that allows for them to create a government. 
Secretary Clinton was there just after the election. It has not 
been a year. And they still have failed----
    Mr. Burton. Let me interrupt because I don't want to 
monopolize this. All three suggested that there might be the 
need for a Dayton II Accords. Are you looking into that?
    Mr. Gordon. No. We are looking at the implementation of the 
Dayton Accords that exist. Nobody should think that there is 
some quick fix; that if only somehow there was a different 
constitutional arrangement or institutional structure, this 
would be any easier than it is now.
    Mr. Burton. Mr. Meeks.
    Mr. Meeks. Thank you, Mr. Chairman. I want to submit my 
opening statement for the record. I apologize for being late.
    [The prepared statement of Mr. Meeks follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Meeks. Mr. Engel and I were at a very important meeting 
regarding New York State redistricting. I want to thank the 
chairman because this is a timely hearing on the current state 
of affairs in the Balkans. I know you recently visited there. I 
wish I was on that trip. You have been focused on traveling and 
taking Members so that we can see what is happening on the 
ground ourselves. I just want to say thank you for this 
hearing. It is very timely.
    I continue to want to work with you. You had this time by 
yourself. Now we are here to sit back and hear what is really 
going on.
    Let me say this. I do believe that the United States has a 
positive role in which we can play in all these endeavors in 
the Balkans. If we disengage, I think there are others lurking 
out there waiting to fill the void. So it is time--and those 
that want to fill the void don't necessarily have the best of 
intentions. And so we have got to make sure that those 
influences who stand ready in the wings to stimulate organized 
crime, encourage radicalism and rekindle violence, while others 
want to ensure the region's orientation is not toward Euro-
Atlantic integration but, rather, toward fears of influence 
from the East. So the timeliness and the importance of us 
engaging now I think is important--and not disengaging.
    And I know, Mr. Assistant Secretary and the State 
Department, I compliment you for what you have been doing. I 
know the Secretary has visited the region, and is doing it on a 
very urgent matter in trying to keep us together. So I want to 
compliment you on that.
    That being said, let me ask a couple of quick questions. 
Europe and the United States seem to overlap greatly when it 
comes to policy toward the Balkans and the Balkan region. How 
would you evaluate the EU's ability to affect the region as a 
result of the new-formed policy formed in Lisbon today?
    Mr. Gordon. Thank you very much, Mr. Meeks. Let me just 
reinforce your first point about disengaging and why that is 
not in the U.S. interest. It is our view to have a stable, 
democratic, and prosperous Balkans. Even when resources are 
required to promote such an outcome in the region, in the long 
run, just as we have seen in Central and Eastern Europe, if we 
can help produce stable, democratic, prosperous trading 
partners that contribute to our global missions in this part of 
the world, we will be doing ourselves a favor. So I thank you 
for that comment and welcome it.
    On cooperation with the European Union and how that might 
have changed in the wake of the Lisbon Accords, I would suggest 
that our cooperation with the EU on the Balkans is closer and 
more effective than ever. It is no secret that in the past 
there had been differences in approach between the United 
States and Europe on the region. And I think we have come to 
the point where we really are following the same strategy.
    I mentioned in my opening statement how closely we engage 
with the Europeans, Secretary Clinton and I, Representative 
Ashton. I am in constant touch with my EU counterparts. Deputy 
Assistant Secretary Reeker is there on a regular basis. And we 
are pursuing the same strategy. We believe that the most 
compelling incentives, strategic incentives for the countries 
of the Balkans, is to join the European Union. For many of 
them, joining NATO is also an important goal, and we have tried 
to make clear that if they do the right things and reform in 
the right ways, they can join NATO as well. But overwhelmingly, 
it seems that the incentive of joining the European Union is a 
powerful democratizing tool for them and we support what Europe 
is trying to do.
    I quoted the European Commission's report on Serbia, which 
was very clear. The Commission has been clear with all of the 
countries in the region: Work on rule of law; work on 
democracy; fight corruption; make peace with your neighbors, 
and you will move down the path to European Union membership, 
which will have benefits for everybody.
    Mr. Meeks. Given that, how would you say the European 
economic crisis is affecting it with the high unemployment now 
that is going on and the whole crisis disrupted the region's 
economic growth? How do you see the European economic crisis 
affecting the situation?
    Mr. Gordon. It is obviously a huge challenge on a number of 
levels and it is a challenge that affects the enlargement 
process inevitably. We hope that while resources are scarcer 
everywhere, it won't divert the European Union from the core 
belief, which as I just said, we share; that keeping its doors 
open to countries in the region is in their interest. And it is 
in their economic interest as well. Again, if their choice is 
to have stable democratic trading partners as opposed to 
countries that need support from outside and military presence, 
it seems to us obvious what the choice should be. And I am 
fully confident that the European Union shares our view on that 
subject.
    Mr. Meeks. If you allow me one more question and then I 
will yield back. And maybe if we get a second round, we will. I 
want to ask a question on Bosnia. If we were to place Bosnia on 
a sliding scale between progress achieved because or through 
full implementation of the Dayton Accords and progress achieved 
from the EU accession, where would you put it on that sliding 
scale?
    Mr. Gordon. You are putting me back in graduate school and 
draw a diagram of the influence of the two factors. I think 
they go together. It is really not zero sum between the two, it 
seems to me. Dayton is necessary. It is not enough. They need 
to build on it and do more, including have the EU accession 
process. But it is the absolute minimum. It provides the 
constitutional structure that can allow that country to be a 
functioning state and join the European Union. In the absence 
of full implementation of Dayton, it just won't happen.
    So I think the two, rather than alternatives, which one is 
going to be the powerful factor, they go together--full 
implementation of Dayton and the incentive of joining the 
European Union. Ultimately, as I said, we can't do it for them. 
We can support the EU in making clear what benefits they would 
get by implementing Dayton and meeting the EU's conditions. But 
as I also said, the leaders need to ultimately put the 
interests of the country ahead of their narrow political or 
personal interests. And they have in recent years failed to do 
so.
    Mr. Meeks. Thank you, Mr. Secretary. I really appreciate 
your leadership.
    Mr. Burton. Mrs. Schmidt.
    Mrs. Schmidt. Thank you. Mr. Secretary, my concern is with 
the Serbian-Croatia issue. And that is where I would really 
like to focus a couple of my questions. The first is that--and 
I know that there are ongoing reports on both sides--but there 
are reports that Serbia has spent between $5.5 billion and $6 
billion on parallel institutions in Kosovo. And my concern is 
what is the intention of that money. Is it to help the people 
of Kosovo or to sow division? Is the money going to northern 
Kosovo undermining a resolution to the problems that are there?
    Mr. Gordon. Thank you. First, since you mentioned Croatia, 
just to mention we underscore its importance to the rest of 
this process, because as we talk about how our strategy and 
policy is to encourage all of the countries to move in the 
direction of the European Union, it is important to note that 
one of them is doing so as we speak.
    I mentioned questioning in Europe, in part due to the 
financial crisis, about the future of the European Union 
enlargement. It is worth noting the lesson from Croatia is if 
you do the right thing and you meet the standards on 
anticorruption, rule of law, democracy, judiciary, and make 
peace with your neighbors, you get in. And that is why it was 
hugely positive to see the European Union offer membership. 
Once the ratifications are done, it is going to be a great 
message to the entire region to see that country join the 
European Union.
    That point is related to your question about Serbia and its 
support for parallel institutions. Our message to Serbia is we 
are encouraged to see you also making progress on rule of law, 
democracy, anticorruption, and war criminals. Those are all 
positive steps toward the European Union. But it is hard to 
imagine a country joining the European Union which is actively 
funding separate institutions in a neighboring state and which 
has unregulated, uncontrolled borders with that state, and 
unrecognized. And so that is the message that we together with 
the European Union are trying to convey to Serbia.
    There is a final piece that needs to be managed. And it is 
fully consistent with very significant self-government for the 
people throughout Kosovo, including the ethnic Serbs who live 
in the north. It is entirely consistent with protection of 
their religious and cultural rights, indeed the whole future, 
the whole notion of the European Union, as borders become less 
important. Just as between France and Germany where it was once 
critically important which side of the border you lived on and 
what your ethnicity was, today in the European Union there is 
nothing at that border. And that is the future that we would 
like to see for the Balkans as well.
    Mrs. Schmidt. Thank you. Just one more question. My concern 
with Serbia is it seems to be aligning itself with other 
countries. If Serbia wants to be part--to be aligned with the 
U.S. and NATO and the European Union, my concern is their 
ongoing relationship with Russia and China and other countries 
that have been less helpful in the Balkans. Could you elaborate 
on that, please?
    Mr. Gordon. Sure. Those relationship we watch closely. But 
I would say that we believe Serbia has made a strategic choice 
for Europe and that it wants to be a European country, it wants 
to be a European member. The chairman referred to the 
Government of Serbia. They generally have turned the page on 
the Milosevic era. They have a strong relationship with the 
United States. And we want to encourage and support that. So, 
of course, we watch all countries in the region's relationships 
with others, but we don't have any doubts that Serbia's 
strategic choice is for Europe. And we have tried to be clear 
on what they need to do to see the culmination of that positive 
process.
    Mrs. Schmidt. Thank you. I yield back my time.
    Mr. Burton. Mr. Engel.
    Mr. Engel. Thank you very much, Mr. Chairman. Welcome, Mr. 
Secretary. Thank you for the great work that you do, that you 
have been doing for many years. We appreciate it.
    Mr. Chairman, I was just following you around the Balkans. 
I just got back from Kosovo yesterday. And as people know, I 
have been a strong supporter of an independent Kosovo for many, 
many years. I know that Mr. Rohrabacher and Mr. Poe and you 
were around the region as well.
    Let me talk about certain observations that I made. First 
of all, I was there in Kosovo to help cut the ribbon on the new 
road, that Prime Minister Thaci Highway which will link Albania 
with Kosovo, and hopefully Serbia one day as well. It seems to 
me at a time when some countries are trying to close borders, 
Kosovo is trying to open its borders. I think that is a 
positive thing for Europe.
    The Prime Minister of Albania was there, Mr. Sali Berisha 
was there, Mr. Thaci, also the President of Kosovo. I hope one 
day there will be a time when we can have a ceremony like that, 
that the leaders of Serbia will be there as well. I think that 
their rejectionist attitude toward Kosovo is negative--more so 
negative for Serbia than anybody else, unfortunately. I think 
that Kosovo is making great strides. I just wanted to throw 
that out.
    One of the things that some of my colleagues have 
mentioned, which is very disturbing to me, is the fact of 
parallel institutions that have been set up in north Mitrovica 
by Serbia. I think that is a situation that cannot be 
sustained. So I want to ask you, is there a plan to end the 
criminality and lawlessness, to restore freedom of movement and 
establish control over the borders, which is provided by KFOR's 
mandate? Is EULEX doing enough to bring this about?
    What I heard when I was there was there are between 50 and 
200 people, mostly criminals and sponsored by Belgrade, who are 
behind this. It seems to me that the majority of the Serb 
population there doesn't support it and wouldn't support it. 
These are criminals going back and forth.
    I want to also add, which I think is important to point 
out, is that most Serbs in Kosovo lie south of the river, which 
cuts through Metrovica. It is the southern part. Since 
independence, there are six majority Serbian municipalities 
that have been established in Kosovo, where the Serbs now run 
their own affairs, including local government, education, road 
building, and other matters. Most importantly, I think, they 
are participating in all levels of the government in the 
Republic of Kosovo, from Deputy Prime Minister Slobdan Petrovic 
to local mayors and council members in the municipality.
    Can you also describe the progress which has come from the 
plan for an independent Kosovo devised by the former President 
of Finland, Martii Ahtisaari?
    Mr. Gordon. Thank you, Mr. Engel. First, I appreciate your 
mentioning the new highway and raising the vision of such 
highways stretching not just between Albania and Kosovo but 
ideally between Belgrade and Pristina. Why not think that way 
and imagine that you would have transportation routes between 
Serbia and Kosovo; open trade between Serbia and Kosovo; 
customs being collected not by smugglers or local gangs, but by 
officials who would then take the customs revenues and 
distribute them to the people who live there. That is the 
vision that we have for the region. And it is not an 
unrealistic one. It requires a modicum of cooperation on both 
sides. We hope the EU dialogue will bring the parties to talk 
about these things. If the leaders are really focused on the 
rights and well-being of the people who live there, that is the 
vision that we should see them trying to implement.
    In the meantime, we are doing all we can through KFOR and 
EULEX to provide for that opening and to fight against the 
corruption and the closed borders that we see. That is why we 
believe we need to continue to support KFOR and EULEX, because, 
alas, in their absence we would see the closed borders and the 
corruption under issue. KFOR is a mandate to provide a safe and 
secure environment and to ensure freedom of movement. That is 
why we strongly back what KFOR and EULEX are together trying to 
do.
    You are absolutely right to mention the ethnic Serbs who 
live in Kosovo but not in the north, for a number of reasons. 
One is that they have shown that it is possible to be an ethnic 
Serb in Kosovo but also to have a very significant degree of 
self-government and democracy.
    You mentioned the Serb majority municipalities. They have 
elected their mayors. Their democracy is functioning. I have 
visited with the Serb mayors. Secretary Clinton visited with 
them when she was there. It is a model for how you can have 
this confident degree of self-government while being in the 
borders of a democratic, multiethnic Kosovo.
    These sorts of arrangements were provided for in the 
Comprehensive Status Plan, which also, by the way, provides for 
a voice from Belgrade. It is not as if neighbors can have no 
interests or say in developments in the region. If the concern 
is that locals have a significant degree of say over their 
hospitals and their schools and their police, that can be 
provided for within the context of a democratic, multiethnic 
Kosovo.
    So we hope that is a vision that ethnic Serbs of Kosovo, 
that the neighbors, Belgrade, come to share, because moving 
down that path would really be the recipe for the well-being of 
the people who live there and the success of both countries.
    Mr. Engel. What about the fact that essentially north 
Mitrovica has been blocked by the Government of Kosovo from 
being able to control it? It is part of Kosovo. The Ahtisaari 
plan clearly said that what is happening now should be allowed 
to happen. I believe if we keep kicking the can down the road, 
whether it is KFOR or whomever, it is going to be much worse, 
much more difficult to resolve as the years go by. We should 
not allow this lawlessness to just continue because if we do, 
we are first of all not really implementing the Ahtisaari, 
which was adopted. Secondly, it is only going to flare up and 
be worse down the road. So I would wonder if you could comment 
on that.
    The last thing I want to throw in is that I am for Kosovo 
and Serbia being part of the European Union. But I don't think 
Serbia can get in before Kosovo because Serbia would then block 
Kosovo the way it has blocked Kosovo from getting into the 
United Nations. So I think it is important. I think it is 
important that both countries join the EU because I think that 
the EU borders aren't that important because there is 
flexibility of travel among all places and borders. But I don't 
think Serbia should be admitted before Kosovo.
    So I wonder if you can mention about the lawlessness in 
north Metrovica and the fact that we just can't keep kicking 
the can down the road.
    Mr. Gordon. On lawlessness, we remain strongly committed to 
backing KFOR and EULEX politically and with the resources they 
need to combat that lawlessness. We will stay engaged as long 
as we need to until that situation is dealt with. We reinforce 
it because there is only so much we can do with the presence on 
the ground, with the strategy of making clear to Serbia that it 
is path to European Union membership requires dealing in an 
appropriate way with that situation.
    I talked a bit about what that appropriate way might be. We 
share the view that both countries should enter the European 
Union. If they did, the borders would be far less significant 
and both countries would clearly benefit.
    Mr. Engel. Thank you. Thank you, Mr. Chairman.
    Mr. Burton. Mr. Poe.
    Mr. Poe. Thank you, Mr. Chairman. Having been to the 
region, Mr. Secretary, there is no place on Earth like the 
Balkans. You couldn't write a story and come up with all the 
different dynamics that are taking place. I have never seen 
such a thing.
    I will correct you on one thing. Kosovo recognizes them as 
neighbors. But Serbia doesn't recognize Kosovo. So, with that 
correction.
    I have several questions and try to be brief in your 
answers, if you will. The issue I will call, for lack of better 
phrase, the Marty report and the Del Ponte memoirs, you have 
read it, I have read it. We heard accusations--tremendous 
accusations--while we were there about what took place. But we 
also met with our Ambassador to Kosovo, Mr. Dell. He basically 
took the position that it was all a bunch of nonsense. There is 
no such thing. Couldn't happen. Wouldn't happen. A little 
disturbing in that he didn't seem to be open-minded to trying 
to find a conclusion.
    I think the allegations of people being killed for their 
organs anywhere in the world is about as bad as it gets. I 
would hope we get to the bottom of it and resolve it one way or 
another. So are we going to do that or are we just going to 
hope time passes by and we never get a resolution? Because 
people of all different ethnic groups that we met with really 
want an answer to that question. So is the U.S. going to push 
that, Secretary Gordon?
    Mr. Gordon. Absolutely. As I said, these are very serious 
charges. We have looked at them carefully and came to the view 
that they deserved, indeed required, serious investigation. To 
underscore our commitment on this, I think it really--that is 
why we found and identified and put forward the best possible 
candidate. That is the opposite of sweeping this under the 
carpet. There are plenty of ways you can bury a report or have 
someone else deal with it. And I think we did the opposite of 
that. We said it needs to be investigated. We weren't convinced 
that--there aren't a whole lot of experienced war crimes 
prosecutors out there who are available and ready and prepared 
to take on this responsibility. And so I want to tip my hat to 
Ambassador Williamson for being willing to do it. We said it 
needs to be a serious, credible person. We will put him 
forward. And I think that is really a sign of the degree to 
which we agree with you that we need to get to the bottom of 
this. It is serious.
    Mr. Poe. The second was about the people who have been 
murdered on both sides during all this conflict. There would be 
mass graves--or graves--and people in this grave would be 
transported to another grave and then be moved to another grave 
to try to prevent anybody from finding out where they are. You 
have got mixed remains in three different graves.
    Are we proceeding sufficiently enough so people in the 
entire region are going to get some satisfaction about their 
family members, wherever they were killed?
    Mr. Gordon. It is another hugely important issue. It is 
part of the dialogue. There has been real progress. There is no 
doubt a lot of work needs to be done still in terms of refugees 
and displaced people and missing persons. But we believe that 
all of the countries of the region are committed to tackling 
these problems, and even in recent months there has been 
important progress.
    Mr. Poe. The KFOR operation, Camp Bondsteel, I was there in 
2008. It is winding down. We would fly over the area where the 
roadblocks--we saw a lot of roadblocks. We saw a lot of Serbian 
flags; big flags at the roadblocks. You are aware of all of 
that. How long are we going to be in Kosovo? How long is the 
United States going to be in Kosovo because of that issue of 
protecting that border area?
    Mr. Gordon. No longer than necessary.
    Mr. Poe. That may be a long time. The impression I got, it 
is going to be a long time.
    Mr. Gordon. Here is what I would say to put it in context. 
I have made the case already and really defended, that without 
us it wouldn't be in our interest to let this go and to let 
locals put up roadblocks and do nothing about it. I would 
remind us all that our initial deployment to Kosovo was more 
than 40,000. And so it has dramatically come down from when we 
went to Kosovo in the first place, and steadily, to the point I 
think the American deployment today is around 700 troops, which 
is a small proportion of the overall NATO commitment there. 
Germany has twice as many troops--you saw this for yourself--as 
we do.
    So our contribution is important, but it is appropriate and 
limited and has been steadily coming down. We would like to get 
to the point where it wasn't necessary at all, but we need to 
make political progress before it is possible to entirely 
eliminate the military contribution that we are making.
    Mr. Poe. I think the presence of the United States has made 
a difference--will make a difference there, just based on my 
observation.
    The last question. We have heard a lot and we discussed a 
lot here in this committee on northern Kosovo, the borders 
being drawn really by Tito years ago. For some odd reason we 
took Tito's borders and we made it the rule of law. The whole 
idea of the Serbs in the north of Kosovo--we are a Nation I 
think that believes in self-determination. But if the Serbs in 
northern Kosovo--just assume with me in a hypothetical, they 
want to be part of Serbia, why do we say you can't be part of 
Serbia, you have got to be part of Kosovo, even though you 
don't want to be? Assume my hypothetical is correct first, Mr. 
Secretary.
    Mr. Gordon. Going back to your first comment about there is 
nothing like the Balkans, I assume part of the reason you said 
that is the complexity of the region. We have the phrase 
``Balkanization'' is a reflection of that complexity. There are 
so many different ethnic groups throughout that region, which 
makes it in some ways a wonderful place. It makes it also a 
complicated place.
    The reason we can't simply say if certain people of one 
ethnic group living in one place want to be part of another 
country, that they should be allowed to, as that would 
literally open a Pandora's Box that could never be closed. So 
if you said that Serbs--if you took your stipulation that Serbs 
in northern Kosovo should be able to choose to be part of 
Serbia, well, why not Serbs in Bosnia? So then some Serbs in 
Bosnia become part of Serbia. What about Albanians in Serbia? 
Do they then choose a different country? At what point do you 
stop? What about the Serbs in the southern part of Kosovo? Do 
they get to be part of Serbia? You could go on and on in 
describing all of the different Macedonians, Albanians.
    Mr. Poe. Excuse me for interrupting, Mr. Secretary, because 
I have only got 1 minute left. I am just talking about the 
Serbs in northern Kosovo, of course, seems to be the conflict. 
The people in Serbia, many of them, think their families should 
be able to be part of their country. The Serbs in northern 
Kosovo, seem to me, they don't want to be part of Kosovo. And 
there are some leaders really in both countries who think we 
have got to figure out a partition or something to help the 
folks in northern Kosovo because that is where the problem is. 
That is why KFOR is over there, is because of that issue in 
northern Kosovo, in my opinion.
    So is there anything that is going to help, or are we going 
to say you're stuck with the country you're in and that's going 
to be the U.S. position indefinitely? Is that kind of our 
position?
    Mr. Gordon. It is our assessment that there is no way to 
start redrawing borders that stops in a stable place, and that 
you would actually open it up for much more conflict and 
complication than we have at present. Where we want to get, 
frankly, is the point that borders are less important. Where 
you have European Union members that trade with each other, 
that there is not even a post there because it doesn't matter. 
That is, frankly, where the European Union has gotten to, 
especially in the Shengen arrangement on immigration. You just 
don't have presences at the border. That is the way to tackle 
the complicated ethnic makeup of the Balkans, ultimately.
    Mr. Poe. Thank you, Mr. Chairman. I yield back my time.
    Mr. Burton. Ambassador, we appreciate your testimony. It 
was very enlightening.
    Oh, Mr. Rohrabacher, I am sorry. Forgive me. I was 
recognizing you at the end because you aren't a member of the 
subcommittee. I apologize.
    Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman.
    Back to the point that was just made. Basically, I have 
been a supporter from the very beginning. I was, along with 
Eliot, we are very involved in this over the last 20 years. It 
was always based on self-determination; on the concept that 
people have a right to determine their own destiny, which is 
part of our Declaration of Independence, our statement of 
nationhood. But yet it seems to me that if we believed in that, 
we should be supporting these people in the northern tier that 
is next to Serbia who want to be part of Serbia. They have a 
right to self-determination.
    Why is it if we accept your logic and our country's 
position now, we should have sided with Serbia to prevent the 
Kosovars from becoming independent in the first place? No, the 
Kosovars had a right to be independent, and so do some of those 
Serbs in the northern part of that country. Now you say there 
is too much of a risk of having the mushroom and the dominoes 
fall and everybody declares their independence? Well, there is 
a difference. This difference is we are talking about an 
agreement between two countries now--between Kosovo and Serbia. 
You see, there can be no agreements between these various 
countries to delineate their borders. It is up to us as, the 
grand poombas of the whole globe, to determine these people 
cannot make agreements with each other as to where their border 
is?
    Let me remind you, Mr. Secretary, the United States' 
borders were changed into the time when we became a country. 
Remember the motto: 54/40 or fight? What was that all about? 
That was about us saying we were going to fight unless we had 
the 54/40 parallel up there with Canada, which would have given 
us a huge chunk of Canada. But guess what? The people up there 
didn't want to be part of the United States. They wanted to be 
part of Canada, even though we were revolutionary. And we were 
the ones who were for self-determination. Our Government in 
1846 agreed to delineating our border with Great Britain 
beneath Canada in 1846 not to 54/40 but to the 49th parallel.
    I would suggest you are correct that once we get to the 
point where these countries in the Balkans are independent and 
part of the EU, these borders become less important and thus 
the friction there and the potential of war is decreased 
dramatically. How do we get to that point, is the question. And 
you get to that point by trying to find agreements between 
these countries. And I would suggest an agreement between 
Serbia and Kosovo on redesignating their borders so more Serbs 
are in Serbia and more Kosovars are in Kosovo would be a 
dramatic step forward and symbolic of the cooperation that 
would lead to that very point that would permit the EU to 
eliminate the importance of borders.
    Here is the question for you: Are we then superimposing our 
will on the Governments of Serbia and Kosovo that they cannot 
make such an agreement to redelineate their border so that more 
Serbs are in Serbia and more Kosovars are in Kosovo?
    Mr. Gordon. Thank you, Mr. Rohrabacher. When you referred 
to the potential deal between the two to change their borders, 
I know of no agreement between the two countries to change 
their borders along those lines.
    Mr. Rohrabacher. That is not the question. What would our 
position be?
    Mr. Gordon. No one talks about such an arrangement, nor do 
I know of any conceivable arrangement that actually both could 
agree with, that wouldn't cause real problems for the entire 
nation.
    Mr. Rohrabacher. Let me note that I do. Let me note that I 
do know of those things, and you don't seem to and our 
Government doesn't seem to. But I am not asking whether you 
know about it or not. I am asking you whether or not, with an 
honest discussion between the Kosovars and the Serbians, and if 
they decide to make sure there are more Serbians in Serbia and 
more Kosovars in Kosovo, what would our Government's position 
be?
    Mr. Gordon. You are asking a hypothetical question.
    Mr. Rohrabacher. A principle question. Whether or not, in 
principle, that is what we would agree to. These are 
independent countries. Do they have a right to make agreements 
to delineate their borders as we made with Great Britain in 
1846?
    Mr. Gordon. For reasons I have given, I really don't think 
it is in our interest to speculate about border swaps in the 
region, because once you start going down that path, you really 
run the risk that you would be opening up that question in all 
of the neighboring countries.
    Mr. Rohrabacher. Right now you are leaving them with the 
idea that no, you are sovereign countries, but the United 
States is never going to go along with any agreement between 
you two. You have to prove to us first before we can approve of 
anything like that.
    Mr. Gordon. I think changing borders in a volatile region 
is a very significant matter of international concern. If and 
when, to take your hypothetical, it can be done in a way that 
everybody agrees with, without negative repercussions----
    Mr. Rohrabacher. Let me suggest where we are really lucky, 
that back in the early days of our country, number one, that we 
believed in the right to self-determination as expressed in our 
Declaration of Independence. But number two, that we didn't 
have some huge global power suggesting to us that we couldn't 
make an agreement with Great Britain over what the delineation 
of our territory would be. Because instead of 54/40 or fight, 
we would have had a fight.
    It is when you calm tensions by allowing two groups of 
people to make--have an agreement, a mutual understanding, that 
you calm things down, not exacerbate them, especially if it 
leads to a point where the borders become less important.
    So I would suggest that maybe, just maybe, we should be 
rethinking our basic strategy at least between allowing the 
Kosovars and the Serbs to try to reach some understandings on 
their own rather than having us--we are the big guy on the 
block--to come down and tell people what agreements they can or 
cannot make.
    Thank you very much, Mr. Chairman.
    Mr. Burton. Thank you, Ambassador. I am sure you are happy 
to leave on that note. I got a little history lesson there.
    It is a very difficult issue, the whole Balkan situation, 
and we appreciate the tough work you have to face. We 
appreciate you being with us today.
    Mr. Meeks, the ranking member, had to run to another 
meeting but he will be back.
    Former Ambassador Kurt Volker is going to be with us. He is 
a Senior Fellow and Managing Director of the Center of 
Transatlantic Relations at the Johns Hopkins University School 
of Advanced International Studies. He is also a senior adviser 
at the Atlantic Council of the United States and a member of 
its Strategic Advisory Group. He is also managing director of 
the BGR Group. Ambassador Volker was previously a career member 
of the United States Senior Foreign Service, with over 23 years 
of experience working on political and security issues under 
five U.S. administrations. He served as Ambassador and the 19th 
U.S. Permanent Representative on the Council of the North 
Atlantic Treaty Organization (NATO) from July 2, 2008, until 
May 2009, leading the 156-person-strong U.S. mission to NATO.
    My colleague Mr. Meeks will be returning and Mr. 
Rohrabacher as well.
    Mr. Gerard Gallucci served with the United Nations 
Department of Peacekeeping Operations as the U.N. Regional 
Representative in Metrovica, Kosovo, from June 2005, to October 
2008, and thereafter in the U.N. Mission to East Timor as the 
chief of staff until June, 2010. He has served over 25 years 
with the U.S. State Department and retired from the Senior 
Foreign Service in June 2005. Since his retirement he has 
taught peacekeeping as an adjunct professor at several 
universities, including the University of Pittsburgh and George 
Washington University. He received his Ph.D. from the 
University of Pittsburgh in Political Science in 1978 and a 
B.A. from Rutgers University in 1973.
    Ivan Vejvoda is currently vice president of programs at the 
German Marshall Fund of the United States. From 2003 to 2010, 
he served as executive director of the Balkan Trust for 
Democracy, a project of the German Marshall Fund dedicated to 
strengthening democratic institutions in southeastern Europe. 
Mr. Vejvoda came to GMF in 2003 from a distinguished career in 
the Serbian Government as a senior adviser on foreign policy 
and European integration to Prime Ministers Zoran Djindjic and 
Zoran Zivkovic. Mr. Vejvoda was a key figure in the democratic 
opposition movement in Yugoslavia through the 1990s and is 
widely published on the subject of democratic transition, 
totalitarianism, and postwar reconstruction in the Balkans.
    Mr. Volker, we will start with you. If you could keep your 
remarks as close to 5 minutes as possible, we won't cut you 
off.

  STATEMENT OF THE HONORABLE KURT VOLKER, MANAGING DIRECTOR--
  INTERNATIONAL GROUP, BGR GROUP, SENIOR FELLOW AND MANAGING 
    DIRECTOR, CENTER FOR TRANSATLANTIC RELATIONS, SCHOOL OF 
    ADVANCED INTERNATIONAL STUDIES, JOHNS HOPKINS UNIVERSITY

    Mr. Volker. Thank you, Mr. Chairman. Thank you for the 
opportunity to be here. I do have a written statement that I 
have submitted for the record and I will just try to summarize 
some thoughts orally. I appreciate the opportunity to testify 
at this hearing because it gave me a chance to think again--a 
bit of fresh thinking--about the Balkan region, something that 
I think maybe is worthwhile.
    I would like to start my testimony with a thought that I 
think should drive some of our policy thinking looking ahead. 
The thought is this: For the past 15 years, U.S. policy has 
been based on the premise that bringing the countries of the 
region into the EU and NATO--so, integration in European 
institutions--provides such a powerful incentive for reform 
that it is going to drive change in the region, and they will 
overcome their differences, much as Western Europe successfully 
did at the end of World War II, getting beyond the wars of the 
20th century.
    I would suggest that if you take a look around Europe right 
now, that vision is not credible in the short term. If you look 
at the EU, it is dealing with a massive debt and deficit 
crisis. They are talking about whether they can keep the Euro 
Zone together; about whether Greece remains in the Euro Zone; 
what to do with Italy. They are not talking about which new 
countries to bring in.
    Likewise, NATO has slowed down on its movement toward 
enlargement of NATO as well. Probably it is because candidates 
are weaker, but probably also the engine and the consensus 
within NATO to bring in new members has gone down. You hear 
Germany in the political commentary in Germany talking, for 
example, about the EU; maybe it wasn't even a good idea to let 
in Greece.
    So the notion that politically we are going to see this 
move into the European mainstream, and in a near-term period of 
time, just doesn't really ring true to me. And as a result, I 
am not sure it is providing the incentives in the region that 
need to be provided to drive that continued positive change.
    As a result of that, I think that if we are basing our 
presence, the troop presence that we have, the troop presence 
the EU has, the financial support, on the notion that change is 
going to come from inside the region, powered by the drive to 
get into the EU, I think we have to look at ourselves and say, 
Well, it is really not working very well right now; we have 
seen stagnation, if not backsliding, in the last few years.
    I had a chance to testify before a Senate Subcommittee on 
Europe in April 2010. I went back and reread my testimony in 
preparing this one, and I was struck at how little had changed. 
As a result, it makes me think if little has changed in that 
long a period of time, where are we going from here?
    So I would like to suggest that we should take a fresh 
look. But before giving you my thoughts on maybe some ideas we 
could do, I do want to put down a marker that the U.S. should 
not think, Well, if it is not going anywhere, we should 
withdraw, that we should pull out of the Balkans because it is 
not working; because I think that would have grave and negative 
consequences. We got into the Balkans because of the negative 
effect that region and the conflicts there were having on 
Europe. And as we see in the financial crisis every day, Europe 
does matter to the United States. And likewise, security in 
Europe matters to the United States.
    And we are there with relatively a modest investment 
compared to where we have been: Less than 700 troops in Kosovo, 
I think less than 30 in Bosnia for the United States. The EU is 
there in a larger number in Bosnia. So we are not making a 
massive investment. But it is a good insurance policy against 
the degradation of security in the region. But if all it is an 
insurance policy, and we are treading water, that is not good 
enough. I do think, therefore, we should be ramping up our 
diplomatic and political efforts to try to resolve some of 
these lingering problems.
    Let me put it this way. If the thought was that EU 
integration was going to be the driver to fix the problems, and 
that is not happening, maybe the way to look at it instead is 
to drive hard to fix the problems to increase the prospect that 
EU membership is a realistic possibility.
    In that, let me mention three particular things. This came 
up in the question-and-answer earlier, one of them on Bosnia. I 
think the Dayton Accord is an essential foundation in Bosnia, 
but it has stagnated. I do think that we need a renewed 
political push to resolve those issues that were never resolved 
at the time of Dayton. I would call for a Dayton II. I would 
put it this way: It has to be driven by people in the region. 
We can't make the decisions for them. But we can provide a lot 
of international pressure and international support for genuine 
new agreements to go beyond where we have gotten with Dayton 
thus far.
    The second one, and it has been a topic of a lot of the 
discussion here, is Mitrovica. There has been an effort to 
stimulate dialogue between Serbia and Kosovo over the situation 
in the north. As some of the other Congressmen pointed out, 
that is the festering issue there. I don't believe territorial 
swaps can solve the problem, but I do believe agreement between 
the two sides needs to solve the problem. And I think that we 
should again increase the engagement of the U.S. and the EU in 
pressing both sides to come to those resolutions.
    I also mention a third issue, it hasn't been brought up yet 
today, which is the Macedonian name issue. I think it is a 
terrible shame that a country in the Balkans that was ready for 
NATO membership in 2008 has been held back because of the lack 
of agreement over the name. I think that all the elements have 
been on the table in the past. They can be brought back on the 
table. It serves no one's interest--not Greece's, not 
Macedonia's, not the people in the Balkans, not the EU, not 
NATO, not the United States--to see Macedonia held back and 
contribute to continued dysfunctionality in the region. So, 
again, this is a third one. I would like to see a greater U.S. 
and EU coordinated push with both parties to try to bring that 
to resolution.
    A final point, and then I will stop, is all of this fits in 
the context of the big goal. The big goal is a Europe whole, 
free, and at peace. You don't hear a lot of people talk about 
that these days because it is so hard to imagine with all the 
difficulties we with have the EU, with our own budget and 
domestic challenges here at home, but ultimately what we need 
is for Europe--all of Europe, all the people of Europe--to be 
in free societies, market economies, to have stable societies, 
and to be secure. Until that happens, there will always be some 
latent risk. And that is a risk that affects the United States 
as well, because of our need for a stable and secure Europe.
    So we have got to reemphasize the big goal and in that 
context keep pushing very hard on these specific issues.
    Thank you, Mr. Chairman.
    Mr. Burton. Thank you, Ambassador.
    [The prepared statement of Mr. Volker follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Burton. Dr. Gallucci.

 STATEMENT OF GERARD M. GALLUCCI, PH.D., FORMER U.N. REGIONAL 
              REPRESENTATIVE IN MITROVICA, KOSOVO

    Mr. Gallucci. Thank you, Mr. Chairman, Mr. Griffin. Through 
my 30 years career, including the State Department and the 
United Nations, I have never had a chance to appear in such a 
capacity in front of the U.S. Congress. Thank you for the 
honor. I deeply appreciate it.
    Events over the last 4 months in northern Kosovo are 
unfortunate reminders of the potential for things to spiral out 
of control there with consequences that could be felt 
throughout the Balkans. On July 25, units of the Kosovo Special 
Police, sent from Pristina, attempted to seize control of the 
two northern crossing points with Serbia that, until then, had 
been manned by local Kosovo police and members of EULEX. In the 
next days, NATO troops, KFOR and EULEX, both in Kosovo under a 
U.N. Peacekeeping mandate, sought to support the action by 
transporting Kosovo police and customs officials from Pristina 
to the two northern gates. The local Kosovo Serbs saw this as 
an effort to subject them to Kosovo-Albanian control and to cut 
them off from Serbia. They responded by peacefully resisting 
and raising barricades to block further such efforts by the 
Kosovo authorities or the international forces.
    KFOR and EULEX reacted by confronting peaceful protests 
with armed force, using live fire on September 27, and 
repeatedly seeking to remove barricades and close off 
alternative roads using tear gas, pepper spray, and heavy 
machinery. U.S. personnel have been on the front line of these 
efforts, stepping outside their U.N. Mandate without any 
apparent recognition by the administration of their new role.
    Let me be clear about three things. One, the NATO troops 
and EU police have been acting outside their U.N. Peacekeeping 
mandate by trying to impose Kosovo customs in the north without 
any prior political agreement. They are there to keep the peace 
while others seek to resolve the political differences. Their 
actions have damaged international credibility and increased 
tensions dangerously.
    Number two, the great majority of the local Kosovo Serbs in 
peaceful protest and on the barricades are not criminals or 
being forced to be there against their will. They see the 
actions by Kosovo authorities and KFOR and EULEX as an attack 
upon their lives and community.
    Third, nothing can be gained by the effort by the Quint 
countries--the U.S., U.K., Germany, France, and Italy--to 
impose Pristina's authority through force. The Serbs rebuild 
their barricades and use other means to get supplies. The 
actions by NATO and the EU have only hardened their rejection 
of Pristina and made compromise more difficult.
    I note that last week, one person, a Kosovo Serb, was 
killed and several others injured, including a local policeman, 
by gunfire in a sensitive area of north Metrovica. Accounts 
differ as to what happened, but it seems the gunfire came from 
Kosovo Albanians.
    After 12 years of frozen conflict, it has become clear that 
an effort to find practical accommodation for the north, while 
Kosovo's status remains unresolved, is long overdue. The local 
Kosovo Serbs have prevented through peaceful means what they 
see as an effort to impose on them Kosovo institutions that 
they reject. The International
    Peacekeepers have reached the limits of their ability to 
project political solutions that do not have the support of the 
local community in the north. It may therefore be a good time 
for all parties--Kosovo Albanians and Kosovo Serbs, Pristina 
and Belgrade, and the internationals, including the EU and the 
United States--to look for alternatives.
    TransConflict, an NGO in Belgrade that occasionally 
publishes my analysis on their site, has posted a paper that 
looks at such a possible alternative: Status-neutral 
implementation of the Ahtisaari Plan for Kosovo, the Ahtisaari 
Plan, developed at the request of the U.N. Secretary General in 
2007. It derives from an understanding that nothing positive 
can emerge as long as the two sides continue to see the 
situation in zero-sum terms; that for them to win, the other 
side must lose. Rather, to avoid further conflict and open the 
door to focusing on achieving economic progress, each side must 
be willing to compromise and consider outcomes that recognize 
the fundamental interests of the other side as well as their 
own. Simply put, for the northern Serbs to be allowed to live 
in their own communities without political interference in 
local matters from Kosovo's central institutions and with 
continued linkages to Serbia. For the Kosovo Albanians, that 
the north remain part of Kosovo and function in significant 
ways as part of the Kosovo system.
    The paper which I wish to enter as an annex to my testimony 
provides a series of detailed recommendations for the courts, 
the police, municipal competencies, finance, inter-municipal 
cooperation, cooperation with Serbia, and extended competencies 
for north Mitrovica that could facilitate implementation of the 
Ahtisaari Plan in north Kosovo. But without outside help, 
Kosovo Serbs and Albanians are unlikely to be able to rise 
above their history and achieve compromise. The northern Serbs 
prefer outright partition and remaining part of Serbia. The 
Albanians would prefer not to have a Serbian majority in the 
north.
    Unfortunately, the responsible internationals, the Quint, 
and most especially the United States, still support imposition 
of Pristina authority and institutions in the north. 
Reportedly, U.S. elements of KFOR are even now seeking to close 
all alternative roads along the boundary to force the northern 
Serbs to capitulate to Kosovo customs in the official crossing 
points. The rest of KFOR and EULEX appears to be simply waiting 
for the Serbs to abandon their barricades in the coming cold. 
They refused a Serb offer to allow them through the barricades 
if they do not use this access to impose Kosovo customs 
officials on the boundary.
    The illegal and counterproductive efforts of KFOR and EULEX 
seek to force the northern Kosovo Serbs to surrender have only 
increased distrust and strengthened the local resistance to any 
compromise. The Serbs show no sign of being ready to take down 
their barricades.
    Since 2008, Quint policy, strongly encouraged by the United 
States, has been to bully and threaten Serbia and the Kosovo 
Serbs to accept the loss of Kosovo and to abandon the north to 
Pristina. Some view this as one more bit of ``punishment'' for 
Serbia, despite its new reality of democracy and eagerness to 
become fully part of Europe. But pressure and use of force has 
not worked. No Serbian leader, despite EU threats to deny the 
country EU membership unless they cooperate, can simply 
surrender Kosovo or end support for the north. The northern 
Serbs see no alternative but to continue to resist. The Kosovo 
Albanians see no reason to compromise when they have U.S. 
support to continue demanding everything.
    This leaves the alternatives for the north the same as they 
have always been--continued frozen conflict or partition, both 
of which might lead to further ethnic conflict and/or fight, or 
some compromise solution. As things now stand, north Kosovo may 
have to see more conflict before everyone looks to compromise. 
It is a good time to look for other approaches to Kosovo than 
trying to force one side to lose everything. If the United 
States cannot support an effort to achieve real compromise, 
then it should get out of the way and bring our soldiers home 
before we get involved in one more conflict far from home.
    Thank you.
    [The prepared statement of Mr. Gallucci follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Burton. Mr. Vejvoda.

 STATEMENT OF MR. IVAN VEJVODA, VICE PRESIDENT, PROGRAMS, THE 
           GERMAN MARSHALL FUND OF THE UNITED STATES

    Mr. Vejvoda. Thank you very much, Mr. Chairman, for giving 
me the honor to speak before you today about these important 
matters as the region moves away from the conflicts of the 
nineties. History is humbling. I come from the region. I was 
born into the former Yugoslavia. That country disappeared 
before my eyes. As a social scientist, I didn't see it coming. 
That is why it has been humbling.
    Some talked about the unfinished business of Versailles. 
The two countries that were made there, Czechoslovakia and 
Yugoslavia, disappeared. Unfortunately, we did not have the 
fortune of dismembering peacefully, as the Slovaks did, but it 
was in blood and war and hell. And I think saying that, that no 
one wishes to go back there, neither the people nor their 
elected officials. I think it is loose talk when people say 
that Bosnia is prone maybe to go into new conflicts. It would 
be like saying after the U.S. Civil War, 11 years after that 
war, that America would go back into a new civil war.
    We need to give peace a chance. And I think that being 
someone of the glass-is-half-full approach, I think that the 
region has made enormous strides. As you yourself said, as 
Assistant Secretary Gordon said, one needs to take a look at 
the longer view here and get out of the weeds, not neglecting 
in any way the huge challenges that have been exposed here 
throughout the debate this morning.
    I was at the same hearing as Ambassador Volker in April 
2010 in front of the Senate Foreign Affairs Committee. I would 
say that there has been progress made since then. I also reread 
what I had written. Serbia arrested the two outstanding war 
criminals. Many were saying Serbia would never do that; that 
Mladic would somehow disappear. That is sustaining the rule of 
law.
    Serbia, Belgrade, and Pristina have begun a dialogue 3 
years after the declaration of independence of Kosovo. This is 
a quintessential European story. There is nothing totally 
specific, although everything is specific in history. And I 
will not talk about the U.S.-Canada border. I will talk about 
Northern Ireland. Let me just remind you that it took close to 
10 years after the Good Friday Agreement in April 1998, for 
Andy Pasley and Martin McGuinness to sit down and create this 
transitional government, without shaking hands, if you 
remember.
    So that is why I say, Give these people a chance. I think 
that beyond the rhetoric that we hear from both sides, and 
normally politicians, and especially in pre-electoral periods, 
have to do what they do best. But I would say if one takes the 
deeper view of things, I think there is a clear political 
determination on both sides, whether it is in Belgrade or 
Pristina, and a willingness to resolve this. We all need to, 
wherever we are working, facilitate, create that space which 
allows for them, facilitate or not, through back channels or 
not, to find that comfort zone where they will be able to live 
with an agreed solution. There is no ideal solution to this. No 
one will get what they want. This is the lesson from Kashmir, 
from Northern Ireland, from Schleswig Holstein, South Tyrol. 
You take any of these examples and they are important because 
they have produced tools that are on the shelf that we can all 
use here. Of course, it will be a combination of those tools. 
How do you allow people to feel comfortable in something that 
is the least bad solution? I think that is what the two sides 
are grappling with.
    My hope, as with others, is that they go back to the table 
as quickly as possible to continue that. I would not be 
surprised that we see forward movement that is maybe more 
accelerated than we would expect this morning here in 
Washington. And that is because the realities are trenchant. It 
is clear that we will not move to Mars and they will not move 
wherever else. We are bound together by history. We will have 
to live as neighbors. And we are already living as neighbors. 
And I would say that regional cooperation is in fact the unsung 
song of this region.
    You noted the military cooperation that all of these 
countries have with the United States. What clearer sign is 
there about the inclinations of all of these governments, the 
number of regional meetings that occur? In my written 
testimony, which I am submitting, I just mention two of the 
most recent ones.
    The intelligence chiefs of all of these countries met for 
the third time. The ministers of defense meet; the cooperation 
in the Danube Valley, in the Sava River Valley; the fact that 
the railway companies of Slovenia, Croatia, and Serbia have 
realized that they have to join together if they want to be 
competitive in this market; the economic crisis which has led 
everyone to see transparently how dependent each of these small 
countries that are in the region depend on each other for 
economic survival. This is a micro-region of the world. Twenty 
million people.
    Prime Minister Djindjic, for whom I worked and had the 
honor of being his senior foreign policy adviser, used to say 
we are only relevant as a region of 50 million people. He was 
including Romania and Bulgaria then.
    Everybody knows with common sense that we are looking at 
each other, that our hands are tied in the best way, and that 
we have to find that path that will allow us in this world of 
global economic crisis. Just yesterday, Chancellor Merkel told 
us all that this is probably the greatest crisis Europe has 
confronted since World War II. That is the state of affairs of 
Europe in which the state of affairs the Balkans are conducting 
their path forward.
    I would like to say that the European Union still is a very 
potent magnet. Yes, it has a lot of problems everyone sees in 
the region itself. There are some declining public opinion 
polls. But still we find clear majorities to join the European 
Union and NATO, except in Serbia as regards NATO, but Serbia is 
a member of Partnership for Peace and I think it was mentioned 
it is conforming to NATO standards.
    So it is very important that on the date of 9th of 
December, when the European Prime Ministers and Presidents meet 
for their Council, to uphold the suggestion and the opinion 
that the European Commission has made in October that Serbia 
get candidacy; that Montenegro get a date for beginning of 
talks. And, of course, we all applaud the huge success of 
Croatia in becoming a member in July 2013.
    If I can put it very colloquially, we need to keep the 
train moving here. Otherwise, that will help the nay-sayers, 
the nationalists--the rabid nationalists--who say Europe 
doesn't want us and they are being upheld by the U.S. trying to 
keep us out. No. We need a strong leadership gesture which is 
fully merit-based. This is not anything for free. I say that 
because of the progress that hasn't been made in the region. So 
I think we will all be following, whether we are here or over 
there in Europe, what the leaders of Europe decide on December 
9th.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Vejvoda follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Burton. I think I will yield to my colleague, who has 
been very patient, Vice Chairman Griffin.
    Mr. Griffin. Thank you, Mr. Chairman. I would like to hear 
from you, Mr. Ambassador, on the status of our trade 
relationship with the Balkans. I know that the Balkans are in 
need of increased trade and foreign direct investment. As some 
of the shine of Europe maybe rubs off a little bit, I am 
interested to know whether we here in the United States are 
taking advantage of potential trade opportunities, export 
opportunities in particular, and what you think about the 
general status of trade with the United States. If anyone else 
from the panel wants to comment on that, that would be great.
    Mr. Volker. Thank you. I will offer a couple of brief 
comments. I am not sure I have enough depth to answer all of 
the questions that you put on the table. But let me give you 
these couple of points. One of them is that geographically the 
Balkans region is much closer to Europe. It has agriculture and 
small industry, and, as a result, it is naturally going to have 
a larger trade relationship with the EU than it is going to 
have with the United States. That is just the geography of it.
    Secondly, when we talk about progress toward the EU and 
integration, one of the elements of that that people talk about 
is business climate. Do the countries of the region create a 
good, healthy business climate, a fair marketplace, the ability 
of businesses to run themselves, to get clear title to hire and 
fire and not be tied up in regulations to have a clear tax 
policy? They need to do more themselves on the business 
climate.
    And then thirdly, I want to just endorse where I think your 
question is coming from. I would very much like to see the U.S. 
be a stimulus to pushing those kinds of reforms internally, 
including by paving the way for greater direct U.S. trade with 
the region and greater U.S. investment in the region.
    Mr. Griffin. Private sector investment as opposed----
    Mr. Volker. Exactly.
    Mr. Griffin. You probably heard that we are out of money.
    What is the role--anybody that wants to comment, that would 
be great--of corruption in the region in terms of attracting 
economic growth and how corruption there compares to other 
European countries?
    Mr. Volker. I will start, but I don't want to dominate the 
panel here. I think corruption is a serious problem and I don't 
think it has gotten meaningfully better in places. A couple 
cases would be Croatia, which has really stepped toward EU 
membership, and Montenegro, which has made a lot of progress as 
well. When you look at the conflict zones in particular--I want 
to agree with much of what Ivan Vejvoda has said. And I also 
think we face a dilemma. Yes, the people of the region want 
integration into Europe. But the leaders in the region continue 
to hold the region back by failing to settle a lot of these 
issues, and in many ways, because they profit from it, because 
they have created mechanisms that reinforce the status quo and 
hold back the region as a whole. I do think that is a serious 
problem.
    Mr. Griffin. Correct me if I am wrong, but fuller 
integration, or integration into Europe, would bring great 
changes for the leading class and would, as a result of the 
requirements they would have to meet, may put significant 
pressure on the way they do business.
    Mr. Volker. Absolutely. That is part of the premise for 
preparing for EU membership is that you strengthen your own 
economic management institutions, rule of law, the ethics. All 
of those things. That is part of the premise of joining the EU. 
So it would be necessary for them to do that. That is a short-
term downside for those people who profit in other ways today. 
But there is also a long-term benefit--that they are bringing 
their countries forward and they will be leaders in those 
countries.
    Mr. Vejvoda. Congressman, I would like to add a few words, 
if I may. Thank you for bringing up that issue because it is of 
extreme relevance. First of all, to the livelihood of people in 
these countries and then for EU accession, because it is a key 
condition to move forward. Again, here the picture is gray in 
the best sense of the word. There are still outstanding 
problems, but I think much has been done. In fact, I am glad 
Assistant Secretary Gordon mentioned the huge work that has 
been done in judicial reform, for example, in Serbia. But 
Croatia would not have gotten its accession without having 
arrested its former Prime Minister. This is huge. A former 
leader of a country that led the country to NATO is in jail 
today for abuse of power and corruption. Montenegro has done 
substantial work. And so has Serbia.
    What I would like to underline here is that this fight is 
across borders. It is the fight against organized crime that is 
linked to corruption, that is linked to money laundering, and 
then investment of that money into real estate and other 
places. I would like to commend the huge collaboration that has 
occurred with, for example, the DEA here in the U.S. or the 
British Serious Organized Crime Agency and huge heists of tons 
of drugs have been made in Latin America, thanks to the joint 
work of Serbia, Croatia, Montenegro, Bosnia, the DEA, and the 
SOCA. I think that is a testimony to the willingness, again, 
and the determination to overcome the scourge that is organized 
crime, and then corruption.
    In all of these countries--and I come from Serbia, and I 
know more--there are judges from the high court who are in 
jail. There are a number of various mafias that they call the 
highway mafia, those who are taking toll-road money and 
siphoning it off through very clever computer programs. The 
hacking business is intense. Sports. Soccer in all of these 
countries, the fixing of matches. These are some of the 
variety. One could spend the whole afternoon here describing 
how this is being addressed.
    More needs to be done, there is no doubt. And there is huge 
public grievance about the fact this is not moving as fast as 
it can. But that is, again, where we come to the EU's 
framework, which is one that enables this movement forward. 
Just on the trade issue and U.S. investments, U.S. Steel was 
the biggest exporter company from Serbia, worth 12 percent of 
all Serbian exports, just before we went down into the 2008 
crisis.
    Mr. Gallucci. I just wanted to note that open borders 
between the Balkans and Europe also means open borders for 
movements of people and organized crime. I think that 
complicates the European view of how to handle places like 
Kosovo.
    Mr. Griffin. Do I have a few more seconds? I wanted to 
follow up on that and ask, if you are looking at the organized 
crime activities and movements, are they tied to, for example, 
Russian organized crime or are they pretty much limited to the 
Balkans? The reason I ask that is there is a real problem with 
intellectual property and rule of law and acknowledging 
intellectual property laws here in the United States. I call 
that theft. It is a big, big problem. A lot of it is driven by 
Russia--folks in Russia--and some of it has to do with a 
failure to enforce and respect the rule of law even by the 
governmental authorities, not just organized crime.
    China is the other big perpetrator with regard to 
intellectual property violations. I would be interested to know 
if you have heard or know of any specific problems with 
intellectual property and piracy in the region.
    Mr. Vejvoda. This is also an issue that is being addressed 
and is still outstanding. To answer your question simply, it is 
home-grown. We half jokingly, half seriously, say that the best 
regional cooperation is between the criminalized groups. There 
is no ethnic problem between Serbs, Albanians, Croats, 
Montenegrins, Slovenians, Bulgarians, or Romanians. Their 
interest is profit. And they will do everything to maintain 
those good ``relations'' that they have.
    But it is just, as I mentioned, the coordinated effort of 
the police forces, of the intelligence services, that are now 
literally working in real time, with video conferencing every 
day between all of them. That is the only way to get at those 
who are violating, for example, intellectual property.
    Mr. Griffin. Thank you. Thank you, Mr. Chairman.
    Mr. Burton. Did you have a comment?
    Mr. Volker. Just very briefly. I don't believe that 
intellectual property is the biggest organized crime challenge 
that we face in the Balkans. I think that some of the bigger 
ones are in the area of just simple extortion. Money laundering 
and trafficking in persons are the ones I am most concerned 
about.
    I would also say that while it is true there is home-grown 
organized crime, there is also evidence of Russian organized 
crime in the Balkans as well.
    Mr. Burton. Well, let me just end up by saying one of the 
things that has not been discussed today by the Secretary are 
the political problems. You have very vividly pointed out some 
of the problems from the Serbs' point of view on the border 
there, and the customs problem, and how they have been 
importing police from the middle of Kosovo. The Ambassador 
pointed out some of the other problems.
    The one thing that I have noticed in all the testimony 
today, and when I was over there, is there is a big political 
problem that everybody faces. The people in Serbia, the leaders 
in Serbia, I think they have an election coming up here pretty 
quickly. If they throw up their hands and say, ``Okay, we are 
going to accept everything that has been decided,'' then 
politically they are going to get killed. There is just no 
question about it. Conversely, in Kosovo, if it looks like they 
are acceding any of the decisions that have already been made 
to the people on the Serbian side in northern Kosovo, then they 
have a political problem.
    So the only thing that I can see is that there have been 
some very wrong things happening. I am not sure they are going 
to be solved overnight. But the one thing that I think is 
extremely important is that the United States use whatever 
leverage we have to get everybody to the conference table and 
to have them sit down.
    We had the privilege to talk to the leaders, once again, of 
Serbia. I have high regard for those folks and I think that 
that should have been resolved in a different way, as I said to 
the Ambassador. I think we should have done like we do in other 
parts of the world--get them together and try to keep them at 
the conference table until they hammer out a decision that they 
can live with, instead of trying to focus some kind of--force 
some kind of decision from the outside, which many times 
doesn't lead to a real solution but only to more problems.
    But the one thing I think is absolutely imperative is that 
the leaders in Serbia and the leaders in Kosovo continue to 
talk. Because if they will get together and talk, I am sure 
that these problems can be resolved without further conflict. 
And nobody wants another civil war. Nobody wants to see a lot 
of people get killed. We want to see a resolution of the 
problem.
    So with that, I want to thank you and you and you for being 
here today. I appreciate you being so patient and waiting so 
long while we questioned the Ambassador at length. But thank 
you very much. We will use everything at our disposal to try to 
make sure we get everybody together to solve this problem.
    We are adjourned.
    [Whereupon, at 1:06 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



   Material submitted for the record by the Honorable Dan Burton, a 
  Representative in Congress from the State of Indiana, and chairman, 
                   Subcommittee on Europe and Eurasia

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


[Note: Additional material submitted by Gerard M. Gallucci, Ph.D., 
former U.N. Regional Representative in Mitrovica, Kosovo, entitled 
``The Ahtisaari Plan and North Kosovo,'' is not reprinted here but is 
available in committee records.]

                                 <all>

</pre></body></html>
